No. 19-250

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2019
THE STATE OF OKLAHOMA,
Petitioner,
vs.
JESSE ALLEN JOHNSON,
Respondent.

BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI

ANDREA DIGILIO MILLER, OBA No. 17019*
ATTORNEY AT LAW
800 N. Harvey, Suite 317
Oklahoma City, Oklahoma 73102
(405) 208-6161
*Counsel of Record
By Special Appointment of the
Oklahoma County Public Defender
ROBERT ALAN RAVITZ, OBA No. 7428
OKLAHOMA COUNTY PUBLIC DEFENDER
320 Robert S. Kerr Avenue, Suite 400
Oklahoma City, Oklahoma 73102
(405) 713-1550
COUNSEL FOR RESPONDENT
November 18, 2019

QUESTION PRESENTED
Can a state appellate court mandate jury re-sentencing for juveniles
sentenced to life without parole in a jurisdiction that has jury sentencing
conferred by statute without running afoul of Apprendi v. New Jersey?.

TABLE OF CONTENTS
Page
Question Presented
JURISDICTION

1

CONSTITUTIONAL AND RELEVANT STATUTORY PROVISIONS

2

STATEMENT OF THE CASE

2

REASONS FOR DENYING THE WRIT

5

This Court should deny certiorari review because the
Oklahoma Court of Criminal Appeals' opinion granting Mr.
Johnson a re-sentencing proceeding before a jury is based on
independent and adequate state law grounds.

6

Certiorari should be denied because the Apprendi issue was
raised in the district court but not fairly presented In the
court of last resort because the State of Oklahoma did not file
a response to Respondent's petition for extraordinary relief.

10

This Court should deny certiorari review because Petitioner
has failed to establish a serious disagreement between state
courts of last resort or federal circuit courts relating to this
issue.

12

CONCLUSION

16

CERTIFICATE OF SERVICE

17

TABLE OF AUTHORITIES
CASE
Apprendi v. New Jersey,
530 U.S. 466, 120 S.Ct. 2348, 147 L.Ed.2d 435 (2000)
Burgett v. Texas,
389 U.S. 109, 88 S. Ct. 258, 19 L. Ed. 2d 319 (1967)
Cardinale v. Louisiana,
394 U.S. 437, 89 S.Ct. 1161, 22 L.Ed.2d 398 (1969)

11

passim

7

11

Commonwealth v. Batts,
163 A.3d 410 (Pa. 2017)

14

Commohwealth v. Gordon,
942 A.2d 174 (Pa. 2007)

14

Durley v. Mayo,
351 U.S. 277, 76 S.Ct. 806, 100 L.Ed.2d 1178 (1956)

9

Fox Film Corp. v. Muller,
296 U.S. 207, 56 S.Ct. 183, 80 L.Ed. 158 (1935)

9

Graham v. Florida,
560 U.S. 48, 130 S.Ct. 2011, 176 L.Ed.2d 825 (2011)

5, 6, 8, 14

Herb v. Pitcarin,
324 U.S. 117, 65 S.Ct. 459, 89 L.Ed. 789 (1945)

9

Herndon v. Georgia,
295 U.S. 441, 55 S.Ct. 794, 79 L.Ed. 1530 (1935)

9

Hicks v. Oklahoma,
477 U.S. 343 (1980)

9

Johnson v. Elliott,
2019 OK CR 9,

5, 8

P.3d

Kansas v. Marsh,
548 U.S. 163 (2006)

10

Livingston v. State,
1990 OK CR 40, 795 P.2d 1055

7

Luna v. State,
2016 OK CR 27, 387 P.3d 956

5, 8

Mellon v. O'Neil,
275 U.S. 212, 48 S. Ct. 62, 72 L. Ed. 245 (1927)
Michigan v. Long,
463 U.S. 1032, 103 S.Ct. 3469, 77 L.Ed.2d 1201 (1983)

11

9

Miller v. Alabama,
567 U.S. 460, 132 S.Ct. 2455, 183 L.Ed.2d 407 (2012)

passim

Montgomery v. Louisiana,
U.S. ,136 S.Ct. 718, 193 L.Ed.2d 599 (2016)

passim

111

People v. Skinner,
917 N.W.2d 292 (Mich. 2018)

13

State v. Houston,
353 P.3d 55 (Utah 2015)

14

Stevens v. State,
2018 OK CR 11, 422 P.3d 741

passim

CONSTITUTIONAL AUTHORITY
1

28 U.S.C. § 1257(a)
U.S. Const. amend VI

12, 15

U.S. Const. amend VIII

1, 5, 6

U.S. Const. amend XIV

9
STATUTES

MI ST § 769.25

13

MI ST § 769.34

13
1, 7

Okla. Stat. tit. 22, § 926.1

passim

Okla. Stat. tit. 22, § 929

14

PA ST 18 Pa.C.S.A. § 1102.1
RULES
Rule 10, Rules of the Supreme Court of the United States

9

Rule 10(b), Rules of the Supreme Court of the United States

14

Rule 10, Rules of the Oklahoma Court of Criminal Appeals, Okla.
Stat. tit. 22, Ch.18, App

10

Rule 10.4 (A), Rules ofthe Oklahoma Court of Criminal Appeals,
Okla. Stat. tit. 22, Ch.18, App

10

iv

JURISDICTION
Petitioner Seeks a writ pursuant to this Court's certiorari jurisdiction
under 28 U.S.C. § 1257(a). As explained more fully below, this Court lacks
jurisdiction because the issue below was decided on adequate and independent
state grounds. Additionally, the Apprendi issue raised in the Petition was not
raised in the Oklahoma Court of Criminal Appeals, the court of last resort for
criminal cases in Oklahoma, because the State of Oklahoma did not file a
response.
CONSTITUTIONAL AND RELEVANT STATUTORY PROVISIONS
United States Constitution, Amendment VIII:
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and
unusual punishments inflicted.

Okia. Stat. tit. 22, § 926.1:
In all cases of a verdict of conviction for any offense against any of the laws of
the State of Oklahoma, the jury may, and shall upon the request of the
defendant assess and declare the punishment in their verdict within the
limitations fixed by law, and the court shall render a judgments according to
such verdict, except as hereinafter provided.

Okla. Stat. tit. 22, § 929:
Upon any appeal of a conviction by the defendant in a noncapital criminal
case, the appellate court, if it finds prejudicial error in the sentencing
proceeding only, may set aside the sentence rendered and remand the case to
the trial court in the jurisdiction in which the defendant was originally
sentenced for resentencing. No error in the sentencing proceeding shall result
in the reversal of the conviction in a criminal case unless the error directly
affected the determination of guilt.
When a criminal case is remanded for vacation of a sentence, the court may:
1. Set the case for a nonjury sentencing proceeding; or

1

2. If the defendant or the prosecutor so requests in writing, impanel a new
sentencing jury.
C. If a written request for a jury trial is filed within twenty (20) days of the date
of the appellate court order, the trial court shall impanel a new jury for the
purpose of a new sentencing proceeding.
All exhibits and a transcript of all testimony and other evidence properly
admitted in the prior trial and sentencing shall be admissible in the new
sentencing proceeding. Additional relevant evidence may be admitted including
testimony of witnesses who testified at the previous trial.
The provisions of this section are procedural and shall apply retroactively to
any defendant sentenced in this state.
D. This section shall not be construed to amend or be in conflict with the
provisions of Section 701.10 or 701.10a of Title 21 of the Oklahoma Statutes
relating to sentencing and resentencing in death penalty cases; Section 438 of
this act relating to the trial procedure for defendants prosecuted for second or
subsequent offense; or the provisions of Section 439 and 440 of this act
relating to assessment of punishment in the original trial proceedings.

STATEMENT OF THE CASE

Seventeen (17) year old Jesse Allen Johnson, was charged by Information
with one count of first degree murder and one count of conspiracy to commit a
felony on October 7, 2005. He and his four (4) co-defendants Were alleged to
have killed the husband of one of the co-defendants in a murder for hire
scheme.
On December 21, 2005, a preliminary hearing for Jesse Johnson was
held. On March 3, 2006, a youthful offender hearing was held where the court
determined that Mr. Johnson should be treated as an adult because of his age
at the time of the hearing. Despite Mr. Johnson's age, borderline intelligence,
lack of prior criminal behavior and amenability to rehabilitation, the court
found that he was unable to complete a Youthful Offender Program in the time
2

required by Statute. The denial of Youthful Offender status was appealed to the
Oklahoma Court of Criminal Appeals and on June 23, 2006. The Oklahoma
Court of Criminal Appeals affirmed in a 3-2 vote. The Court dehied Youthful
Offender status based upon the Defendant's inability to complete a Youthful
Offender Program under age requirements prescribed by law. (Resp. Appx. at 1)
Due to his classification as an adult Mr. Johnson faced either a life sentence or
a life without parole sentence if convicted.
Based upon the advice of his appointed attorney Mr. Johnson entered a
blind plea of guilty on November 29, 2006. Blind plea sentencing was set for
January 3, 2007 and a Pre-Sentence Investigation Report was ordered by the
court. On that date, the court formally sentenced the Defendant to life without
the possibility of parole on the murder count and ten (10) years to do, the
statutory maximum, on the conspiracy count.'
Following formal sentencing, Mr. Johnson timely filed a Motion To
Withdraw Guilty Plea. Issues raised in that motion included Mr. Johnson's
misunderstanding of the legal process and ineffective assistance of counsel at
his plea hearing and sentencing because he was not told he could call
witnesses in mitigation in his blind plea hearing. (Pet. Appx. at 21) A hearing
on the motion to withdraw plea was held on January 18, 2007. The issue was
taken up on appeal and the sentence was affirmed.

1 By

the time Mr. Johnson's life without parole sentence was remanded for nei sentencing by
the Oklahoma Court of Criminal Appeals he had discharged the ten (10) year sentence for
conspiracy. Therefore, he currently remains in custody of the Oklahoma County Detention
Center while the State of Oklahoma challenges the Oklahoma Court of Criminal Appeals'
ruling.

3

After the Court's decision in Montgomery v. Louisiana, 136 U.S. 718, 193
L.Ed.2d 599 (2016), Mr. Johnson filed a pro se Application for P6st-Conviction
Relief on March 13, 2017 and was subsequently denied by the same district
court judge who had previously sentenced him to life without parole on June
26, 2017. The Court of Criminal Appeals took the issue up on appeal and a
mandate was issued where the Court of Criminal Appeals vacated and
remanded Mr. Johnson's case for resentencing in accordance with the
procedures set out in Stevens v. State, 2018 OK CR 11, 422 P.3d 741. (Pet.
Appx. at 1)
Following remand, the district court held a status conference on June
25, 2018. The matter was reset and ultimately held on October 4, 2018. In
the interim, counsel for Mr. Johnson filed a motion entitled "Defendant's
Request For Jury Trial Pursuant to 22 O.S. § 929." (Resp. Appx 1) The State
filed its "Response 86 Objection To Defendant's Request For Jury Trial Pursuant
To 22 O.S. § 929." (Resp Appx at 8) On October 18, 2018 the district court
judge denied Mr. Johnson's request for jury re-sentencing.
Mr. Johnson petitioned the Oklahoma Court of Criminal Appeals for an
extraordinary writ on November 29, 2018. Without response from the district
court or the State of Oklahoma the state appellate court granted the writ and
remanded the case to the district court for a determination of how to proceed
under Okla. Stat. tit. 22, § 929; the state statutory provision thattonfers upon
Mr. Johnson the right to resentencing before a jury. Specifically, the
Oklahoma Court of Criminal Appeals ordered:
4

The trial court's denial of Petitioner's request for jwy trial
resentencing based upon waiver is VACATED, and this matter is
REMANDED to the trial court for a decision using his discretion
under the directives of Stevens v. State, 2018 OK CR 11, II 38-39,
422 P.3d 741, 750-751, in determining which resentencing
procedure pursuant to Section 929 of Title 22 is appropriate.
Petitioner's pleas of guilty and convictions remain constitutionally
valid.
P.3d. , (Pet. Appx. at 5) Before the

Johnson v. Elliott, 2019 OK CR 9, ¶ 11,

district court had the opportunity to determine "which resentencing procedure"
is appropriate pursuant to Okla. Stat. tit. 22, § 929, the State of Oklahoma
sought certiorari review herein.
REASONS FOR DENYING THE WRIT
As an initial matter it is important to point out whaticAhe State of
Oklahoma is not challenging in this case. The State does not challenge that
the Eighth Amendment rule set forth in Graham v. Florida,2 Miller v. Alabama,3
and Montgomery, applies to the State of Oklahoma's sentencing scheme in first
degree murder cases involving juvenile offenders.4 Additionally, the State does
not challenge the underpinnings of those cases; that a sentencer must consider
the attendant circumstances of youth in an individualized sentencing
proceeding before sentencing a juvenile offender to life without parole. Finally,
and significant to the facts presented in this case, the State does not challenge
the Oklahoma Court of Criminal Appeals holding that Mr. Johnson, and other
560 U.S. 48, 130 S.Ct. 2011, 176 L.Ed.2d 825 (2011).
567 U.S. 460, 132 S.Ct. 2455, 183 L.Ed.2d 407 (2012).
4 In Luna v. State, 2016 OK CR 27, III 14-16, 387 P.3d 956, 961-962, the Oklahoma Court of
Criminal Appeals held that, despite the fact that juvenile life without parole sentences are not
mandatory in Oklahoma, all juvenile life without parole sentences that pre-dated Graham and
Miller violated the Eighth Amendment because the sentencer would not have considered the
attendant characteristic of youth and made a determination that the juvenile was irreparably
corrupt before imposing sentence.

2

3

5

similarly situated defendants who pled guilty prior to Graham and Miller, did
not waive his right to an individual sentencing proceeding before a jury
because he could not have known he was entitled to such an individualized
determination at the time of his plea in 2006. The State seeks review solely on
the issue of whether the individual determination that a juvenile offender is
deserving of life without parole must be made by a jury and beyond a
reasonable doubt under Apprendi v. New Jersey, 530 U.S. 466, 120 S.Ct. 2348,
147 L.Ed.2d 435 (2000).
While that is a question the Court will no doubt have the opportunity to
decide one day, this case does not present the vehicle to decide that issue.
First, the Oklahoma Court of Criminal Appeals' decision to remand Mr.
Johnson's case for a jury resentencing is based on an adequate and
independent state ground. Second, the Apprendi issue was neither squarely
raised before the court of last resort nor decided by the court. Finally, the
jurisdictional split alleged by Petitioner does not exist.
1. This Court should deny certiorari review because the Oklahoma
Court of Criminal Appeals' opinion granting Mr. Johnson a resentencing proceeding before a jury is based on independent and
adequate state law grounds.
When the

Montgomery Court ruled that the substantive Eighth.

Amendment holding of Miller v. Alabama was a new rule applicable to- juvenile
defendants retroactively, the Oklahoma Court of Criminal Appeals took that
mandate seriously and subsequently implemented procedures, pursuant to
state statutory law, to guarantee that juveniles sentenced to life without parole

6

sentences could not be re-sentenced to life without parole without the
sentencer considering the attendant circumstances of youth in determining the
appropriate and proportionate sentence.5 While the procedure implemented by
the Oklahoma Court of Criminal Appeals might confer more protection than
Miller and Montgomery require, the state court is free to do so when it is wholly
based on state law and not federal law. This is a valid exercise of the sovereign
administration of state criminal justice systems that serves as the cornerstone
of our federal system. See generally Burgett v. Texas, 389 U.S. 109, 113-14, 88
S. Ct. 258, 261, 19 L. Ed. 2d 319 (1967)("The States are free to provide such
procedures as they choose...provided that none of them infringes: a guarantee
in the Federal Constitution.")
Oklahoma has jury sentencing in all cases unless the right to jury
sentencing is waived.6 See Livingston v. State, 1990 OK CR 40, II 9, 18, 795
P.2d 1055, 1058-1059 (Acknowledging Oklahoma's statutory right to jury
sentencing). This state statutory right to jury sentencing girds the Oklahoma
Court of Criminal Appeals insistence that when juvenile life without parole
sentences are vacated on post-conviction pursuant to Montgomery, the

5 Petitioner asserts that "This Court made clear in Montgomery that no formal findings of fact
are required by Miller before a juvenile homicide offender may be sentenced.' to life without
parole" citing Montgomery, 136 S.Ct. at 734-735. (Pet. at 5) However, the Court- has made clear
that a juvenile offender cannot be sentenced to life without parole without an individualized
sentencing proceeding as required in capital cases where "youth and its attendant
circumstances" are considered. Miller; 567 U.S. at 475-476, 132 S.Ct. at 2467. From that
individualized sentencing proceeding there must be a determination that the juvenile is
"irreparably corrupt." Miller, 132 S.Ct. at 479-480, 132 S.Ct. at 2469.
6 This facet of Oklahoma statutory law is not explicitly addressed by Petitioner in the petition.
In fact, Okla. Stat. tit. 22, §§ 926.1 and 929 are not referenced in the State's petition except for
an acknowledgement that the basis of the Oklahoma. Court of Criminal Appeals remand was §
929. (Pet. at 17-18)

7

defendants retain the right to jury sentencing. See Luna at ¶ 18, 387 P.3d at
691-962. Moreover, the court held, and rightly so, that when juveniles who
waived jury trial prior to the decision in Miller could not have validly waived the
right to have a jury determination of the findings required by Miller, since that
right did not exist at the time of the waiver. Johnson at ¶ 10. That holding is
perfectly consistent with the idea that one cannot validly waive a right of which
one is unaware, even if that right is conferred by statute.
This state statutory right to jury re-sentencing takes Oklahoma out of
the mainstream of jurisdictions in the United States distinguishing it from the
vast majority of states that leave sentencing to the court. For that reason, the
fact that Graham and Miller speak in terms of judge sentencing does not
foreclose a state like Oklahoma, with jury sentencing and re-sentencing, from
creating a state jury trial procedure to make the determinations necessary to
sentence a juvenile offender to life without parole.
To that end, the Oklahoma Court of Criminal Appeals remanded Mr.
Johnson's case under Okla. Stat. tit. 22, § 929 for the district court to make a
determination of the proper way to proceed making it clear to the-tlistrict court
that Mr. Johnson's waiver of jury trial in 2006 did not waive his opportunity for
a jury to make the necessary determination under Miller. (Pet. App. at 5) The
Order cites to Stevens v. State, 2018 OK CR 11, 1ft 38-39, 422 P.3d 741, 750751,7 as that is the precedential case for the procedure to be used in cases like

Petitioner candidly acknowledges that the discussion of Apprendi in Stevens is mere dicta.
(Pet. at 9) Respondent submits that the reference in the court's order to Stevens relates to the
procedural rules set forth in that opinion and not on the reference to Apprendi in di&a.

7

8

Mr. Johnson's where the conviction remains intact but a resentencing is
necessary under Miller and Montgomery. To hold otherwise would violate Okla.
Stat. tit. 22, § 929 and Hicks v. Oklahoma, 477 U.S. 343 (1980)(Recognizing a
due process interest in application of a state statute under the Fourteenth
Amendment.)8
Petitioner bears the burden of proving that this Court has jurisdiction.
Durley v. Mayo, 351 U.S. 277, 285, 76 S.Ct. 806, 811, 100 L.Ed.2d 1178
(1956). Rule 10 of the Rules of the Supreme Court of the United States expressly
states that "Review on a writ of certiorari is not a matter of right, but of judicial
discretion." This Court has expressly held that jurisdiction does not lie in state
cases that are decided on adequate and independent state law grounds.
Michigan v. Long, 463 U.S. 1032, 1040-1041, 103 S.Ct. 3469, 3478, 77 L.Ed.2d
1201 '(1983). The cornerstone for the rule lies in the Court's respect for the
independence of state courts and avoidance of rendering advisory opinions. Id.
The rule reflects more than a practice by the Court but rather a jurisdictional
limit on the Court's power. Herb v. Pitcarin, 324 U.S. 117, 125,• 65 S.Ct. 459,
463, 89 L.Ed. 789 (1945). This rule applies whether the state law ground is
substantive or procedural. See, e.g., Fox Film Corp. v. Muller, 296 U.S. 207,
210, 56 S.Ct. 183, 184, 80 L.Ed. 158 (1935); Herndon v. Georgia, 295 U.S. 441,
55 S.Ct. 794, 79 L.Ed. 1530 (1935).

Even one of the dissenters to Mr. Johnson's writ order acknowledged the state statutory right
to jury sentencing and the application of Hicks in conferring a due process interest in
application of the state statute. (Pet. Appx. at 11)

8

9

Even if the Oklahoma Court of Criminal Appeals' order in this case was
based in part on Apprendi (which it isn't) and even if this Court ruled that
Apprendi is inapplicable, Mr. Johnson would still have a state statutory right to
jury re-sentencing. The State of Oklahoma has not challenged the Oklahoma
Court of Criminal Appeals' conclusion that his pre-Miller waiver of jury trial
could waive his statutory right to a post-Miller jury sentencing. As such,
reversal by this Court would have no impact on what Mr. Johnson is entitled to
under the state re-sentencing statute. It would, therefore, be an advisory
opinion. Cf. Kansas v. Marsh, 548 U.S. 163 (2006).
2. Certiorari should be denied because the Apprendi issue was raised in
the district court but not fairly presented in the court of last resort
because the State of Oklahoma did not file a response to
Respondent's petition for extraordinary relief.
When Mr. Johnson filed his petition for extraordinary relief under Rule
10, Rules of the Oklahoma Court of Criminal Appeals, Okla. Stat. tit. 22, Ch. 18,
App., the case was submitted and considered by the Court without the Court
ordering a response from the respondent (the district court judge) or the State
of Oklahoma as the real party in interest. Specifically, Rule 10.4 (A) states in
pertinent part, "Oral argument and/or a response may be ordered by this
Court." (emphasis added) Based on the court's previous rulings in juvenile life
without -parole cases, the court issued an order relying on state statutory
provisions. The application for extraordinary relief was entitled "Application for
Court To Assume Original Jurisdiction and Petition For Writ of Prohibition
And/Or Mandamus To Prohibit Respondent From Sentencing The Petitioner

10

Without Empaneling A Jury Pursuant To 22 O.S. 2011 § 929 and Stevens v.
State." (Resp. App. at 29) The brief in support of the application did not cite to
Apprendi much less argue that Mr. Johnson's right to jury resentencing was
based on the principal articulated in Apprendi. Instead, Respondent, as in the
district court, argued that Mr. Johnson was entitled to jury resentencing under
the state statutory provision and the procedure set out in Stevens.

(Resp.

Appx. at 35) The rules of the Oklahoma Court of Criminal Appeals do not
prohibit filing a response and at no time did the State of Oklahoma move for
leave to file a response and raise the Apprendi issue. Following the issuance of
the order the. State could have sought re-hearing arguing the Court failed to
consider to raise an issue raised in the district court. It did not do so.
This Court will not review a state court decision where the federal issue
was not fairly presented to the state court of last resort. In Mellon v. O'Neil,
275 U.S. 212, 214-15, 48 S. Ct. 62, 63, 72 L. Ed. 245 (1927) the C9urt stated:
It has long been settled that this Court acquires no jurisdiction to
review the judgment of a state court of last resort on writ of error,
unless it affirmatively appears upon the face of the record that a
federal question constituting an appropriate ground for such review
was presented in and expressly or necessarily decided by such state
court. It is not enough that there may be somewhere hidden in the
record a question which if it had been raised would have been of a
federal nature. (citations omitted)
This rule addressed the pragmatic concern that if the issue was not decided by
the lower court then there will not be an adequate record on which to decide
the issue here.

Cardinale v. Louisiana, 394 U.S. 437, 439, 89 S.Ct. 1161,

1163, 22 L.Ed.2d 398 (1969).

11

Here, the State argued that Apprendi does not confer a right to jury
resentencing in its written response to Mr. Johnson's request for jury trial in
the district court. (Resp. Appx: at 8) At the October 18, 2018 hearing the State
made the claim, among other arguments, that the Stevens Court based its
decision on dicta in Apprendi.9 (10-18-18 Tr. 6) The district court's ruling
merely states that the State's "position is accurate" and denied the request for
a jury re-sentencing made pursuant to the state statute. As stated above, the
issue was not raised in the Oklahoma Court of Criminal Appeals and the
extraordinary writ order is silent on the application of Apprendi. There is no
record or written decision for this Court to decide this federal constitutional
issue.
3. This Court should deny certiorari review because Petitioner has
failed to establish a serious disagreement between state courts of
last resort,or federal circuit courts relating to this issue.
The State of Oklahoma argues that the decision below "solidifies a direct
conflict among the state courts of last resort over whether a juvenile homicide
offender has a Sixth Amendment right to jury factfinding before a life-without
parole sentence may be imposed." (Pet. at 11) In support of the alleged "direct
conflict" the State primarily relies on decisions from three (3) states—Michigan,
Pennsylvania and Utah. A closer look at these jurisdictions reveals that there
is no significant split on the question presented in the petition. Even more
fundamentally the Oklahoma Court of Criminal Appeals has not held that
depriving a juvenile offender in Oklahoma of jury sentencing would violate
However, the argument of the parties during that hearing were brief because both sides stood
on what they had filed in the motion and response.

9

12

Apprendi. Petitioner readily admits that the reference to Apprendi in Stevens
was dicta. (Pet. at 9) Further, Petitioner acknowledges that the Apprendi issue
was not raised by either party in Stevens.

Because the Stevens Court's

reference to Apprendi is only dicta, and because it did not address Apprendi in
Respondent's order, the Oklahoma Court of Criminal Appeals cannot be said to
have ruled on the issue so that it is not in conflict with any other state court.
Beyond that, any ruling by a state court rejecting the Apprendi argument
cannot be in conflict with the procedure implemented by the Oklahoma Court
of Criminal Appeals if that state does not have jury sentencing conferred by
statute. Respondent submits that none of the state court holdings from courts
of last resort cited by Petitioner create a conflict requiring resolution by this
Court because the sentencing scheme of those states do not include jury
sentencing like Oklahoma has via state statute.
In People v. Skinner, 917 N.W.2d 292, 304-305 (Mich. 2018) the
Michigan Supreme Court rejected a challenge to MI ST § 769.25 enacted in
response to Miller that allowed a judge to consider the factors set forth in Miller
in assessing punishment for juvenile offenders facing life without parole. While
it is true the Michigan Supreme Court rejected the Apprendi challenge to the
statute, it cannot be found to be in direct conflict as this case because
Michigan is a judge sentencing state with sentencing guidelines.

See MI ST

769.34. If the Michigan Supreme Court struck down the statute as
unconstitutional under Apprendi it would have carved out an exception to
Michigan's felony sentencing procedure. As such the impact would have been
13

very different in Michigan than in Oklahoma where the state appellate court's
ruling merely confers the same right to jury sentencing to juvenili; offenders as
to all other criminal offenders in the state.
Likewise, in Commonwealth v. Batts, 163 A.3d 410, 447-450, 456-457
(Pa. 2017) the Pennsylvania Supreme Court ruled that the state statute
enacted by the Pennsylvania Legislature in response to Graham and Miller
setting forth the sentencing range for juvenile offenders charged with first
degree murder did not violate Apprendi by allowing the judge rather than a jury
to sentence the offender.

See PA ST 18 Pa.C.S.A. § 1102.1. Again,

Pennsylvania has judge sentencing rather than jury sentencing.
Commonwealth v. Gordon, 942 A.2d 174, 182 (Pa. 2007)(Pennsylvania judges
retain broad discretion to sentence up to and including the maximum sentence
authorized by statute; "the only line that a sentence may not cross is the
statutory maximum sentence.")(citation omitted).
The only other case from a state court of last resort cited by Petitioner as
supporting the assertion of a conflict amongst court of last resort is Utah.
Petitioner cites State v. Houston, 353 P.3d 55, 68 (Utah 2015) cert. denied, 136
S.Ct. 2005 (2016). However, Petitioner also acknowledges that following the
decision in Houston the Utah legislature banned life without parole sentences
for juvenile offenders. (Pet. at 13, n. 5) Therefore, reliance on that case to
weigh in favor of a conflict in state court decisions is misplaced. Likewise,
Petitioner includes in the discussion about conflict in state court decisions
several intermediate courts of appeal decisions. However, under Rule 10(b)
14

this Court looks to decisions of court of last resort not intermuYate appellate
court decisions to determine whether a significant conflict exists requiring this
Court's attention. Therefore, further attention to those cases is unnecessary.
Petitioner has failed to show a significant conflict between Oklahoma, a
state with jury sentencing conferred by state statute, and other states with
similar sentencing schemes. While there are certainly state court decisions
rejecting the Sixth Amendment jury sentencing claim under Apprendi in the
juvenile life without parole context, the Oklahoma Court of Criminal Appeals
has not decided that issue. Even if it ultimately rejects the Sixth Amendment
argument when the issue is properly presented to it, juvenile offenders in
Oklahoma facing a potential life without parole sentence will still be entitled to
jury sentencing as conferred by state statute. As such, the imagined conflict in
jurisdictions raised by Petitioner simply has no practical impact on Oklahoma.

15

CONCLUSION
Respondent prays the Court deny the State of Oklahoma's petition
because the opinion of the state court below relies on adequate and
independent state grounds and because the State of Oklahoma has failed to
show a meaningful split in jurisdictions in relation to the question presented.
Respectfully submitted,

By:
ANDREA DIGILIO MILLER, (OBA # 17019)
By Special Appointment by the
.
Oklahoma County Public Defende: Office
800 N. Harvey Ave, Suite 317
Oklahoma City, Oklahoma 73102
(405) 208-6161
admiller@okcu.edu
ROBERT A. RAVITZ, (OBA #7428)
Public Defender of Oklahoma County
320 Robert S. Kerr, Suite 400
Oklahoma City, OK 73102
(405) 713-1550
robert.ravitz@oscn.net
ATTORNEYS FOR RESPONDENT

16

No. 19-250
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2019

THE STATE OF OKLAHOMA,
Petitioner,
vs.
JESSE ALLEN JOHNSON,
Respondent.

CERTIFICATE OF SERVICE
I, Andrea Digilio Miller, member of the bar of this Court, do hereby certify
that I have served a copy of the Brief In Opposition To Petition For Writ of
Certiorari by hand delivery to Assistant District Attorney Jennifer Hinsperger,
counsel of record for Petitioner, this 18th day of November, 2019.

1

ANDREA DIGILI ILL R

